    March 15, 2006




Financial Management

Internal Controls Over Compiling and
Reporting Environmental Liabilities
Data
(D2006-062)




                  Department of Defense
                 Office of Inspector General

                                   Constitution of
                                  the United States

     A Regular Statement of Account of the Receipts and Expenditures of all public
     Money shall be published from time to time.
                                                             Article I, Section 9
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit, Audit Followup and Technical Support at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact Audit Followup and
  Technical Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
  Ideas and requests can also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)
                      Department of Defense Inspector General
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704




Acronyms
AFRIMS                Air Force Restoration Information Management System
AFRPA                 Air Force Real Property Agency
BEC                   Base Environmental Coordinator
BRAC                  Base Realignment and Closure
DERP                  Defense Environmental Restoration Program
DUSD (I&E)            Office of the Deputy Under Secretary of Defense, Installation and
                         Environment
FMR                   Financial Management Regulation
GAO                   Government Accountability Office
IRP                   Installation Restoration Program
MIS                   Management Information System
MMRP                  Military Munitions Response Program
OMB                   Office of Management and Budget
RACER                 Remedial Action Cost Engineering Requirements
SAF/FM                Assistant Secretary of the Air Force, Financial Management and
                         Comptroller
                             INSPECTOR GENERAL
                           DEPARTMENT OF DEFENSE
                              400 ARMY NAVY DRIVE
                         ARLINGTON, VIRGINIA 22202-4704




                                                                           March 15,2006
MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR ACQUISITION,
                 TECHNOLOGY, AND LOGISTICSIRESOURCES AND
                 ANALYSIS
               DEPUTY UNDER SECRETARY OF DEFENSE
                 (INSTALLATIONS AND ENVIRONMENT)
               ASSISTANT SECRETARY OF THE AIR FORCE
                 (FINANCIAL MANAGEMENT AND COMPTROLLER)
SUBJECT: Report on Internal Controls Over Compiling and Reporting Environmental
         Liabilities Data (Report No. D-2006-062)

       We are providing this report for review and comment. Comments from the
Assistant Secretary of the Air Force (Financial Management and Comptroller) were
received too late to be considered in preparing the final report.
       DoD Directive 7650.3 requires that all recommendations be resolved promptly.
Therefore, if the Assistant Secretary of the Air Force (Financial Management and
Comptroller) does not submit additional comments by March 29,2006, we will consider
the comments received as the response to the final report.
       If possible, please send management comments in electronic format (Adobe
Acrobat file only) to Auddfs@dodig.mil. Copies of the management comments must
contain the actual signature of the authorizing official. We cannot accept the / Signed /
symbol in place of the actual signature. If you arrange to send classified comments
electronically, they must be sent over the SECRET Internet Protocol Router Network
(SIPRNET).
       We appreciate the courtesies extended to the staff. Questions should be directed
to Ms. Barbara A. Sauls at (703) 325-5782 (DSN 221-5782) or Ms. Monica M. Harrigan
at (703) 325-5930 (DSN 221-5930). See Appendix F for the report distribution. The
team members are listed inside the back cover.
                               By direction of the Deputy Inspector General for Auditing:



                                         Paul ~Hranetto,CPA
                                       Assistant Inspector General
                                       Defense Financial Auditing
                                                 Service
               Department of Defense Office of Inspector General
Report No. D-2006-062                                                    March 15, 2006
   (Project No. D2005-D000FH-0062.000)


              Internal Controls Over Compiling and Reporting
                       Environmental Liabilities Data

                                 Executive Summary

Who Should Read This Report and Why? DoD civilians and uniformed officers
responsible for environmental cost estimating and financial reporting should read this
report. It discusses internal controls over compiling and reporting cost-to-complete
estimates for environmental liabilities included in the Air Force annual financial
statements.

Background. This audit is required by Public Law 101-576, Chief Financial Officers
Act of 1990, as amended by the Federal Financial Management Act of 1994. This report
discusses the adequacy of internal controls used to compile and report $7.4 billion of
environmental liabilities and environmental disposal liabilities data on Note 14 of the
Air Force FY 2004 Annual Financial Statements. Specifically, we address the adequacy
of the control environment and control activities over compiling Defense Environmental
Restoration Program and non-Defense Environmental Restoration Program data for
active installations, and Base Realignment and Closure data for inactive installations.
Environmental liabilities include estimated amounts for future cleanup of contamination
resulting from waste disposal methods, leaks, spills, and other past activities that have
created public health or environmental risks. Two Components within the Air Force are
responsible for calculating and reporting cost-to-complete estimates for environmental
liability data in Note 14 of the annual financial statements. Headquarters, United States
Air Force Office of the Civil Engineer Environmental Division manages and reports
Defense Environmental Restoration Program and non-Defense Environmental
Restoration Program cost-to-complete environmental liability estimates for active
installations. The Air Force Real Property Agency manages and reports cost-to-complete
environmental liability estimates for Base Realignment and Closure installations. In
performance and accountability reports for FYs 2002, 2003, and 2004, DoD identified
environmental liabilities as a systemic management control weakness as defined by the
Federal Managers’ Financial Integrity Act.

Results. The Air Force did not have adequate internal controls over the compilation of
cost-to-complete environmental liabilities estimates reported for active and Base
Realignment and Closure installations. As a result, cost-to-complete estimates used in
support of environmental liabilities and disposal liabilities by the Air Force active and
Base Realignment and Closure installations were unreliable.

By recognizing and accepting the proper level of risk associated with reporting cost-to-
complete estimates for environmental liability data, training personnel to compile reliable
and accurate cost-to-complete estimates for environmental liability data, and providing
oversight throughout the organization, the United States Air Force Office of The Civil
Engineer Environmental Division could improve its control environment. Evaluating the
uniformity of control activities outlined in Office of Management and Budget Circular
A-123, Revised June 21, 1995, “Management Accountability and Control,” defining key
internal control standards, and establishing a process for the preparation and compilation
of cost-to-complete estimates for environmental liabilities could improve the control
activities of active installations and major commands reporting environmental liability
data. Defining the implementation of existing key internal control standards could
strengthen the control activities at Base Realignment and Closure installations reporting
to the Air Force Real Property Agency (see finding A).

Headquarters, United States Air Force Office of The Civil Engineer Environmental
Division management control program did not identify material weaknesses related to
reporting cost-to-complete estimates for environmental liabilities (finding B).
Headquarters, United States Air Force Office of The Civil Engineer Environmental
Division should perform periodic assessments of the internal controls and report the
material weaknesses (as identified in finding A of this report) in their annual statement of
assurance until corrected. See the Finding sections of this report for details on our
recommendations.

See Appendix D for other matters of interest regarding the Military Munitions Response
Program, non-Defense Environmental Restoration Program information management
systems, quarterly reporting, and corrective actions taken by the Air Force Real Property
Agency.

Management Comments. We provided a draft of this report on December 9, 2005.
Management comments were received too late to be incorporated into the final report. If
the Assistant Secretary of the Air Force (Financial Management and Comptroller) wishes
to make additional comments on the report, he should submit them by March 29, 2006.




                                             ii
Table of Contents

Executive Summary                                                        i

Background                                                              1

Objectives                                                              4

Managers’ Internal Control Program                                      5

Findings
     A. Adequacy of Air Force Internal Controls                         6
     B. Air Force Office of the Civil Engineer Environmental Division
        Management Control Program for Environmental Liabilities        20

Appendixes
     A.    Scope and Methodology                                        23
     B.    Prior Coverage                                               25
     C.    Effective Internal Control Practices                         27
     D.    Other Matters of Interest                                    28
     E.    Environmental Information Flow Process                       30
     F.    Distribution List                                            31
Background
    Reporting Requirement. According to Public Law 101-576, Chief Financial
    Officers Act of 1990, as amended by the Federal Financial Management Act of
    1994, each executive agency must prepare and submit a financial statement for
    the preceding fiscal year to the Director of Office of Management and Budget.
    The Chief Financial Officers Act requires that financial statements prepared by an
    agency be audited by the Inspector General in accordance with generally accepted
    government auditing standards. Environmental liabilities include estimated
    amounts for future cleanup of contamination resulting from waste disposal
    methods, leaks, spills, and other past activities that have created public health or
    environmental risks. This report discusses the adequacy of internal controls used
    to compile cost-to-complete estimates associated with environmental liabilities
    and disposal liabilities data on Note 14 of the Air Force 2004 Annual Financial
    Statements. DoD identified, in performance and accountability reports for
    FYs 2002, 2003, and 2004, environmental liabilities as a systemic management
    control weakness as defined by the Federal Managers’ Financial Integrity Act.

    Financial Management Regulation. DoD Regulation 7000.14-R, Financial
    Management Regulation (FMR), volume 4, chapter 13, “Environmental and
    Non-environmental Liabilities,” September 2002, prescribes the accounting
    policy and principles for measuring and recognizing DoD liabilities associated
    with the disposition of property, structures, equipment, munitions, and weapons.
    It also prescribes the accounting policy and principles for recognizing and
    measuring environmental liabilities associated with corrective actions and with
    future closure of facilities on active installations. FMR volume 4, chapter 13, also
    sets policy for recognizing and measuring liabilities for environmental response
    actions at operational test and training ranges on active installations. FMR
    volume 4, chapter 14, “Accrued Defense Environmental Restoration Program
    (DERP) Liabilities,” September 2002, prescribes policies and principles for
    recognizing and measuring DoD liabilities associated with the containment,
    treatment, or removal of contamination that could pose a threat to public health
    and the environment. FMR volume 4, chapter 14, also states that liability
    recognition must not be based on the availability of funds. Both chapters 13 and
    14 of the FMR stipulate that cost estimates of environmental disposal and
    restoration activities be subject to audit.

    DERP. Section 211 of the Superfund Amendments and Reauthorization Act of
    1986 established DERP. The goals of the program include:

       •   the identification, investigation, research and development, and cleanup of
           contamination from hazardous substances, pollutants, and other
           contaminants;

       •   correction of other environmental damage, that creates an imminent and
           substantial endangerment to the public health and welfare or to the
           environment; and




                                         1
   •   demolition and removal of unsafe buildings and structures, including
       buildings and structures of the DoD at sites formerly used by or under the
       jurisdiction of the Secretary.

Environmental restoration activities that occur under DERP fall into one of three
program categories: Installation Restoration Program (IRP), Military Munitions
Response Program (MMRP), and Building Demolition/Debris Removal Program.

The Office of the Deputy Under Secretary of Defense for Installations and
Environment (DUSD [I&E]) provides, operates, and sustains installation assets
and services necessary to support U.S. Military forces. DUSD (I&E) developed
the DERP Management Guidance, September 2001, to serve as a companion to
DoD Instruction 4715.7, “Environmental Restoration Program,” April 22, 1996.
Instruction 4715.7 implements and refines policies, assigns responsibilities, and
prescribes procedures for the DERP and the Base Realignment and Closure
(BRAC) environmental restoration program. DoD’s environmental restoration
account provides funding for DERP environmental liabilities; BRAC funds its
own environmental restoration program. The DERP Management Guidance
provides additional guidelines for implementing environmental restoration at
active installations, facilities subject to BRAC, and Formerly Used Defense Sites;
determining cost-to-complete estimates; and reporting financial data of
environmental restoration liabilities.

In February 2003, the Air Force Civil Engineer Environmental Restoration
Branch (Restoration Branch) issued, “Management Guidance for the United
States Air Force Environmental Restoration Program,” which provides
programmatic guidance for estimating the cost-to-complete restoration of
environmental liabilities for DERP projects on active installations and BRAC
facilities.

Air Force Non-DERP. Federal, State, and local environmental laws and
regulations, such as the Resource Conservation and Recovery Act of 1976 and
Environmental Protection Agency requisites, are the basis for non-DERP
environmental project requirements. In FY 2004, the FMR and Air Force
Instructions were the only guidance available. At the time of our fieldwork,
specific guidance for the management and reporting of non-DERP environmental
liabilities was not available from DUSD (I&E), the office responsible for issuing
DoD environmental guidance. The Quality Branch, which falls under the office
of The Air Force Civil Engineer, is responsible for the oversight of the Air Force
non-DERP activities. Instructions from the Quality Branch provided guidance on
calculating:
   •   cost-to-complete estimates for Non-Environmental Restoration Accounts,

   •   closure cost for Resource Conservation and Recovery Act Treatments,

   •   closure cost for permitted landfills and storage and disposal facilities, and

   •   closure cost for Resource Conservation and Recovery Act-regulated
       underground storage tanks.


                                     2
The Quality Branch instructions required active installations and major
commands to calculate cost-to-complete estimates from July to August 2004
using Remedial Action Cost Engineering Requirements (RACER).

Reporting Responsibilities. Headquarters, United States Air Force Office of
The Civil Engineer Environmental Division (Air Staff) and the Air Force Real
Property Agency (AFRPA) are responsible for reporting the cost-to-complete
estimates for environmental liability data used in Note 14 of the annual financial
statements. Air Staff manages DERP and non-DERP funds for environmental
liability activities at active installations and major commands. AFRPA manages
BRAC funds for BRAC environmental liability activities.

        Air Staff. Air Staff oversees the Air Force environmental restoration
efforts and sets the overall strategy, objectives, and policy for the program.
Air Staff delegated specific oversight and approval tasks to the Integration
Branch, Quality Branch, and Restoration Branch. According to Restoration
Branch personnel, Air Staff reports DERP funded environmental liabilities for
active installations using the Air Force Restoration Information Management
System (AFRIMS), an automated management system with security controls.
AFRIMS generates cost-to-complete information similar to the RACER system
with the additional capability of producing the Air Force restoration budget data
such as the President’s Budget and Budget Estimate Submission, program
objective memorandums, cost and schedule to complete, and the annual Report to
Congress. As a reporting tool, AFRIMS is capable of generating reports
documenting areas of concern, site data, installation expenditure data, major
command data, and relative risk data. AFRIMS does not track or manage non-
DERP funded environmental liability activities; instead, Quality Branch
personnel require active installations and major commands to collect non-DERP
funded environmental liabilities using a uniform Excel spreadsheet.

        AFRPA. The AFRPA Environmental Restoration Division allocates
cleanup funds and oversees the execution of the program by issuing guidance to
BRAC installations. AFRPA reports BRAC funded environmental liability
activities using the Management Information System (MIS). MIS is a web-based
programming and data management system with security controls designed for
the BRAC program. MIS manages installation site cleanup schedules, program
funds planning, project funding execution, and financial resources. In addition,
MIS generates status, progress, performance, and other user-defined reports, as
well as formal data exports to meet administrative and regulatory requirements.

Remedial Action Cost Engineering Requirements. RACER is a cost
estimating tool used to estimate DERP, non-DERP, and BRAC environmental
restoration costs. The Air Force Civil Engineering Support Agency planned and
funded the development and modifications of RACER, and completed the
verification, validation, and accreditation of RACER in June 2001. The Air Force
uses RACER to develop the cost-to-complete environmental estimates for the
annual budget as well as estimates for environmental liabilities associated with
future years (out-years).

Note 14 of the Annual Financial Statements. Note 14 of the Air Force FY 2004
Annual Financial Statements discloses additional information to the Balance


                                     3
    Sheet on Environmental Liabilities and Disposal Liabilities. Note 14 data
    independently detail environmental liabilities funded through DERP, non-DERP,
    and BRAC. DERP funded activities include “Environmental Restoration” and
    “Environmental Restoration for Closed Ranges.” Non-DERP funded activities
    include “Environmental Corrective Action” and “Environmental Closure
    Requirements.” BRAC funded activities include “Environmental Restoration”
    and “Environmental Corrective Action.” As of FY 2004, the Air Force no longer
    reports disposal liabilities. The Defense Authorization Act of 1986 transferred
    the accounting responsibility for all disposal costs to the Department of the Army
    for inclusion in their financial statements.

    As of September 30, 2004, the Air Force reported $549 million in “current
    environmental liabilities” and $6.8 billion in “noncurrent environmental
    liabilities.” Current environmental liabilities represent obligations that are
    reasonably expected to be settled during the next fiscal year. Noncurrent
    environmental liabilities represent obligations that are not expected to be
    liquidated within that fiscal year. Therefore, in Note 14 of the FY 2004 Annual
    Financial Statements, the amounts reported as current liabilities represent
    environmental costs to be paid in FY 2005. Table 1 outlines the Air Force
    environmental liabilities by funding categories and current and noncurrent status.



          Table 1. FY 2004 Environmental Liabilities on Note 14 of the
                    Air Force Annual Financial Statements
                                     (in thousands)

                                  Current             Noncurrent
                                  Liability             Liability          Total

      DERP                        $397,368             $5,172,703     $5,570,071
      Non-DERP                       6,177                288,491        294,668
      BRAC                         145,811              1,376,637      1,522,448
               Total              $549,356             $6,837,831     $7,387,187


Objectives
    Our overall audit objective was to assess internal controls associated with
    compiling the financial data that are reported within financial statements in
    accordance with Federal financial accounting standards. Specifically, we
    assessed the control environment and control activities for reporting
    environmental liabilities and disposal liabilities. We also reviewed the
    management control program as it related to the audit objectives. See
    Appendix A for a discussion of the scope and methodology. See Appendix B for
    prior coverage related to the objectives.




                                         4
Managers’ Internal Control Program
    DoD Directive 5010.38, “Management Control Program,” August 26, 1996, and
    DoD Instruction 5010.40, “Management Control Program Procedures,”
    August 28, 1996, require DoD organizations to implement a comprehensive
    system of management controls that provides reasonable assurance that programs
    are operating as intended and to evaluate the adequacy of the controls.

    Scope of the Review of the Management Control Program. We reviewed the
    adequacy of the Air Force DERP, non-DERP, and BRAC management controls
    over cost-to-complete estimates for environmental liabilities reported on the
    annual financial statements. Specifically, we reviewed management controls over
    audit trails and documentation, segregation of duties, supervisory reviews,
    management of human capital, and the overall process used to prepare, review,
    and submit cost estimates for inclusion in the annual financial statements. We
    reviewed management’s self-evaluation process applicable to those controls.

    Adequacy of Management Controls. We identified material management
    control weaknesses for the Air Force as defined by DoD Instruction 5010.40. The
    Air Force DERP, non-DERP, and BRAC management controls for environmental
    liabilities were not adequate to ensure reliability of the data and processes used by
    the Air Force to report cost-to-complete environmental liability estimates. The
    DoD Performance and Accountability Reports for FYs 2002, 2003, and 2004
    identified environmental liabilities as a systemic management control weakness as
    defined by the Federal Managers’ Financial Integrity Act. Recommendations A
    and B, if implemented, will improve the reliability of reported environmental
    liability estimates. A copy of this report will be provided to the Office of the
    Assistant Secretary of the Air Force, Financial Management and Comptroller
    (SAF/FM).

    Adequacy of Management’s Self-Evaluation. Air Staff did not identify or
    report the material management control weaknesses identified by the audit.
    Air Staff neither collected, reviewed, nor compiled management control programs
    from active installations or major commands for input into the Air Force Office of
    the Civil Engineer FY 2004 Annual Statement of Assurance. However, we did
    obtain documentation for the management control program from the Air Force
    Materiel Command. AFRPA, the official reporting agency for BRAC, did
    identify cost-to-complete estimates for environmental liabilities as an assessable
    unit and disclosed associated material weaknesses in its management control
    program. A copy of this report will be provided to the senior official responsible
    for management controls in the Office of the Deputy Air Force Civil Engineer for
    Installation, Logistics, and Engineering.




                                         5
            A. Adequacy of Air Force Internal
               Controls
            The Air Force did not have adequate internal controls over the
            compilation and reporting of cost-to-complete estimates for environmental
            liabilities reported in Note 14 of the annual financial statements for active
            and BRAC installations. The internal controls were inadequate because
            Air Force did not promote the development of a positive control
            environment for active installations and enforce sound internal control
            activities at active and BRAC installations. Specifically, for the control
            environment, the Air Staff:

                •   considered the process of reporting cost-to-complete estimates for
                    environmental liabilities as a low risk,
                •   did not commit to training personnel who report cost-to-complete
                    estimates for environmental liabilities, and

                •   did not provide oversight throughout the organization to ensure
                    that proper operating activities and reporting relationships existed.

            The deficiencies identified in the control activities at both active and
            BRAC installations included areas of:

                •   audit trails and documentation,

                •   segregation of duties,

                •   supervisory reviews,

                •   management of human capital, and

                •   the process for reviewing and reporting restoration cost.
            As a result, the Air Force did not provide reasonable assurance that
            personnel complied with applicable laws and regulations related to
            estimating environmental liabilities. Also, the cost-to-complete estimates
            used in support of environmental liabilities and disposal liabilities by the
            Air Force were unreliable.


Internal Controls Standards
     Government Accountability Office Standards. The Government
     Accountability Office (GAO), “Standards for Internal Control in the Federal
     Government,” November 1999, defines internal controls as an integral component
     of an organization’s management that provides reasonable assurance of the
     achievement of effective and efficient operations, reliable financial reporting, and
     compliance with applicable laws and regulations. A positive control environment

                                             6
provides discipline and structure, as well as the climate which influences the
quality of internal controls. Control activities are an integral part of an entity’s
planning, implementing, reviewing, and accountability for stewardship of
Government resources and achieving effective results. Appendix C contains
examples of internal control practices.

Office of Management and Budget Standards. Office of Management and
Budget (OMB) Circular A-123, Revised June 21, 1995, “Management
Accountability and Control,” developed general and specific management control
standards based on GAO’s Standards of Internal Control. OMB Circular A-123
defines management controls as the organization, policies, and procedures used to
provide reasonable assurance of the following:

       •   programs achieve their intended results;

       •   resources are used consistent with agency mission;

       •   programs and resources are protected from waste, fraud, and
           mismanagement;

       •   laws and regulations are followed; and

       •   reliable and timely information is obtained, maintained, reported and
           used for decision making.

DoD Standards. DoD has issued guidance that supports the need for effective
internal controls as defined by GAO standards and OMB Circular A-123. The
FMR, DERP Management Guidance, Air Force Management Guidance, and
Air Force Instructions contain requirements for maintaining audit trails,
documentation, and evidence of internal control procedures. Key accounting
requirements of the FMR state the following.

   •   Accounting systems must have adequate internal controls to prevent,
       detect, and correct errors and irregularities that may occur throughout the
       system.

   •   Separation of duties and responsibilities must be maintained for initiating,
       authorizing, processing, recording, and reviewing transactions.

   •   Audit documentation must exist at the time of an audit.

   •   Environmental liability estimates must have audit trails to allow
       transactions to be traced from the point of initiation to the final report.

A fundamental requirement of an audit trail is that all transactions be adequately
supported with pertinent documents and source records, including a narrative
providing sufficient explanation for the basis of the estimate, the date prepared,
the preparer’s name, and evidence of supervisory approval.

DERP Management Guidance expounds on this requirement and establishes
additional requirements. Section 15.8.2 requires the development and


                                       7
     implementation of a formal document tracking process that allows for the
     identification and tracking of all changes made to a document from the point of
     creation through its use in the final report. A formal process for tracking
     documentation must identify data resources, the estimating method accreditation,
     and the rationale used. Components must also retain the associated management
     review documentation. Section 15.8.1 requires Components to develop and
     implement formal training programs to include introductory and recurring
     refresher training for staff that develop cost-to-complete estimates or prepare
     environmental restoration liability reports. As part of the audit trail for the annual
     financial statement, Components must maintain documentation that staff received
     this training.

     Air Force Instruction 32-7020, “The Environmental Restoration Program,”
     February 7, 2001, implements the DERP and incorporates cost-to-complete
     requirements outlined in the FMR. Air Force Instruction 65-201, “Management
     Control,” May 1, 1997, implements the requirements of the OMB Circular A-123
     in developing effective management controls.


Internal Controls Over the Compilation and Reporting of
   Environmental Liabilities Data
     The Air Staff did not have adequate internal controls over the compilation and
     reporting of cost-to-complete estimates for environmental liabilities at active and
     BRAC installations. The control environment of Air Staff was weak because
     management did not assign the reporting of cost-to-complete estimates for
     environmental liabilities at the appropriate level of risk; promote training for
     personnel; or provide oversight of the environmental program. The four active
     installations visited did not maintain audit trails and documentation; and the
     personnel either lacked training, or did not retain training records, or both. Two
     of the three major commands visited lacked proper segregation of duties, and all
     three lacked adequate documentation of supervisory reviews. We identified
     deficiencies in the control activities at active installations and major commands
     that led to ineffective internal controls over the compilation process by Air Staff.
     BRAC installations had an isolated instance involving the lack of proper
     segregation of duties. The four BRAC installations we visited also did not
     maintain effective control activities such as timely supervisory reviews and
     adequate training.


Air Force Control Environment at Active Installations
     Risk. The Air Force established a weak control environment for managing and
     reporting cost-to-complete estimates for environmental liabilities. Management’s
     philosophy and operating style affect the control environment. GAO standards
     indicate that positive and supportive attitudes towards internal controls and
     conscientious management create an effective control environment. Risk
     assessment as defined by GAO is the entity’s identification and analysis of
     relevant risks to achieve its objectives, forming a basis for determining how the
                                           8
risks should be managed. In addition, GAO outlines several factors that affect the
inherent risk, including the nature of the program and the nature of material
transactions and accounts. Specific elements of these factors include audit
difficulty, estimates that are based on management’s judgment, and problems
with realization and valuation.

Correspondence we received from the Chief of the Environmental Division,
Air Staff, indicates that the Air Force considered the submission of data used to
compile cost-to-complete estimates for environmental liabilities as low risk to the
management of environmental programs. Despite the Air Force’s assessment,
DoD identified the reporting of environmental liabilities as a systemic
management control weakness for FYs 2002, 2003, and 2004. Furthermore, the
GAO has identified environmental liabilities as a high risk area for financial
statement reporting. Recognizing and accepting the proper level of risk
associated with reporting cost-to-complete estimates for environmental liabilities
will reinforce the need for effective internal controls and help improve the control
activities. Air Staff manages the environmental program; in addition, they review
and approve the cost-to-complete estimates for environmental liabilities reported
in the financial statements. Active installations prepare the cost-to-complete
estimates, the major commands review and approve this information. (See
Appendix E for an illustration of the environmental information flow process.)
SAF/FM and Defense Finance and Accounting Service perform analytical
reviews on the cost-to-complete environmental liability estimates reported in the
Air Force and DoD-Wide financial statements. The path for compiling and
reporting cost-to-complete estimates for environmental liability data into the
financial statements leads from the installations up to the Air Staff. Data can
easily be changed or eliminated anywhere along the path. Some data are not
reported in the financial statements because program personnel judge that the data
need not be included. Therefore, the flow of information through these levels is
critical. Information reaching the SAF/FM and the Defense Finance and
Accounting Service is rolled up and consolidated in Note 14 without further
review of details.

Training. Air Staff did not commit to training the personnel compiling the
environmental liability cost-to-complete estimates for inclusion in Note 14 of the
annual financial statements because Air Staff did not consider this to be its
responsibility. According to the Integration Branch Chief at Air Staff, the
Environmental Division is responsible for issuing policy and guidance for the
overall execution of the environmental program; however, the responsibility of
ensuring the accuracy of the environmental data rests with SAF/FM. The
Integration Branch Chief further stated that restoration program managers at the
active installations and major commands need not excessively concern themselves
with environmental liability issues, training, and confusing financial terminology
because the financial community within the Air Force handles those issues.

Personnel at active installations and major commands annually prepare budget
data for environmental costs for the upcoming execution year, which generally
covers cost for 12 to 18 months from the time prepared. In addition, the
personnel prepare the restoration liability submissions used by SAF/FM and the
Defense Finance and Accounting Service to support Note 14 of the annual
financial statements. For financial statement purposes, the cost-to-complete


                                     9
estimates for environmental costs support both the current and non-current
liabilities. Because of the lack of training, the restoration program managers
could not distinguish between the information prepared in support of the annual
budget submission and the information prepared as support in the restoration
liability submission used for the annual financial statements. In order to limit the
confusion for the restoration managers, Integration Branch management
encouraged active installations to use information to support multiple tasks; this
included using the budget estimate submission to support the restoration liability
submission which is reported in the annual financial statements.

Using the same data for both purposes created incomplete environmental data for
the annual financial statements. During site visits, we observed that restoration
program managers had access to the appropriate guidance for compiling the cost-
to-complete estimates for financial reporting. However, they did not follow the
guidance because they lacked necessary knowledge of financial terminology and
financial reporting requirements to properly compile the environmental data.
Air Staff management can contribute to fulfilling the internal control goal of
reliable financial reporting when it takes steps to ensure that personnel are well
trained on the value of compiling environmental data and the importance of
financial reporting so that they understand how these tie into agency goals and
objectives.

Oversight. Air Staff did not provide oversight of the environmental program to
ensure that active installations properly compiled cost-to-complete data and that
major commands reviewed and reported data accuracy. Air Staff assigned three
branches to the environmental process. The Restoration Branch and the Quality
Branch are responsible for the oversight and collection of data for DERP and non-
DERP installations, respectively. The Restoration Branch is also responsible for
conducting annual Program Management Reviews with the major commands to
assess the effectiveness of their programs and to ensure that targets and goals are
on track. The Integration Branch is responsible for approving DERP and non-
DERP cost-to-complete data and the accompanying Note 14 narrative text for the
financial statements.

The Restoration and Quality Branches send an annual data call to active
installations and major commands for restoration liability submission. According
to Air Force Instruction 32-7020, active installations prepare and maintain
supporting documentation for environmental liability cost-to-complete estimates,
however, the major commands are responsible for the accuracy of the
environmental liability cost-to-complete estimates prepared by the active
installations. We believe the way to ensure accuracy is through review and
approval. Section 15.8.3 of the DERP Management Guidance requires each
Component of the process to review its financial processes and data. In addition,
section 15.8.3 requires a disclosure statement to address instances where the
entity does not meet accounting standards. Non-DERP guidance had not been
issued at the time of our review; however, in our opinion, the same requirements
in the DERP Management Guidance should apply to non-DERP transactions.
The Restoration and Quality Branches did not review the restoration liability
reporting processes and data related to the cost-to-complete estimates prepared at
the active installations and major commands to ensure that they submitted reliable
information for cost-to-complete estimates for environmental liabilities. The two

                                     10
     Branches assumed that active installations and major commands were preparing
     and maintaining information according to applicable guidance.

     The Restoration and Quality Branches did not have a process in place to ensure
     that major commands reviewed and approved DERP and non-DERP
     environmental cost-to-complete data that supported the reported amounts. For
     example, two major commands were unaware that the active installations were
     not preparing and maintaining project documentation and RACER estimates for
     the DERP noncurrent portion of the reported environmental liability.
     Consequently, the Integration Branch approved DERP and non-DERP
     environmental liability cost-to-complete estimates data and narrative text for Note
     14 without assurance that the information used was prepared and maintained
     consistent with DoD requirements. Effective oversight can help identify
     deficiencies and internal control vulnerabilities in various processes of program
     management.


Air Force Control Activities
     None of the active and BRAC installations we visited fully complied with internal
     control guidance when managing and compiling cost-to-complete estimates for
     environmental liabilities. The FMR and DERP Management Guidance both
     require that documentation to support audit trails be maintained and readily
     available for inspection at the time of audit. OMB Circular A-123 requires that
     key duties and responsibilities in authorizing, processing, recording, and
     reviewing official agency transactions be separated among individuals. Personnel
     involved in the preparation of DERP and non-DERP cost-to-complete estimates
     did not maintain evidence of supervisory reviews. The major commands and
     active and BRAC installations either lacked evidence of training or personnel
     were not trained. Two of the three major commands visited circumvented controls
     by managing cost-to-complete estimates for environmental projects on behalf of
     the active installations instead of requiring the active installations to prepare,
     implement, and maintain appropriate supporting documentation as outlined in
     Air Force Instructions. In another instance, BRAC installation personnel assumed
     multiple roles in reviewing and authorizing environmental data. Effective
     segregation of duties would reduce the risk of error or fraud. OMB Circular
     A-123 also encourages organizational policies and procedures that reasonably
     ensure that reliable and timely information is obtained, maintained, and reported.
     The four BRAC installations we visited did not conduct timely reviews of the
     environmental data used to support the annual financial statements. OMB
     Circular A-123 also requires management to commit to competence by requiring
     personnel to possess and maintain a level of proficiency to accomplish assigned
     duties.

     Audit Trails and Documentation. Four DERP and three non-DERP
     installations visited did not maintain adequate audit trails and documentation to
     support the environmental liability cost-to-complete estimates.

              DERP. Active Air Force installations did not maintain adequate audit
     trails to ensure that documentation was readily available to support the cost-to-


                                          11
complete estimates used for the DERP environmental liability. None of the active
Air Force installations visited had sufficient documentation to support the total
cost-to-complete estimates reported in AFRIMS. Three active installations did
not provide project narratives, RACER estimates, or any other supporting
documentation for noncurrent years (FY 2006 through completion) reported in the
AFRIMS database. Project documentation in support of the current liability for
one active installation was obtained from the major command. One active
installation was unable to provide any documentation to support the FY 2004
submittals for the restoration liability because a computer crash caused the loss of
RACER-generated cost-to-complete estimates. Another active installation did not
maintain project folders to support the amount reported in AFRIMS. Therefore,
active installations were noncompliant with the requirements set forth by the
FMR, DERP Management Guidance, and Air Force Instruction 32-7020.
Evaluating and assessing the uniformity and adequacy of audit trails and
documentation between installations and major commands will positively impact
documentation retention practices and the availability of supporting
documentation for inspection and review.

        Non-DERP. Active Air Force installations and major commands did not
maintain adequate documentation to support the cost-to-complete estimates used
to report the non-DERP environmental liability. Non-DERP installations did not
maintain and have readily available the source and other supporting
documentation used to develop the assumptions in the estimates generated by
RACER. Non-DERP installations also did not consistently follow guidance from
the Quality Branch, “Accounting for Resource Conservation and Recovery Act -
Underground Strange Tank Closure and Post Closure Care Costs,” by reporting
cost-to-complete estimates for two or more underground storage tanks on one
RACER document. Consequently, non-DERP reporting installations did not meet
the DERP Management Guidance requirements that organizations that prepare
cost estimates must retain adequate documentation to identify data sources, the
estimating method accreditation, and the rational used.

Segregation of Duties. Active Air Force installations and major commands did
not maintain adequate segregation of duties when preparing DERP cost-to-
complete estimates for environmental liability. A major command overextended
its role by preparing installation-level environmental site data in AFRIMS.
Air Force Instruction 32-7020 states that installations are required to prepare,
implement, and maintain in AFRIMS all information required to generate
schedule and cost-to-complete reports for each site to take it to closure. In
addition, installations are required to maintain RACER cost estimate records for
each site with associated changes and their justifications. AFRIMS is designed
with specific data entry fields that belong to either the installation or major
command. This built-in internal control feature is designed to ensure proper
segregation of duties between the installations and major commands. Active
installations enter cost-to-complete estimates and supporting data for each
environmental site into AFRIMS. Major commands allocate the budgeted funds
within AFRIMS, allowing installations to obligate funds against each
environmental site.
At one major command, the personnel controlled every aspect of the AFRIMS
transactions. According to an active installation, the major command entered data

                                    12
into the installation’s requirement field within AFRIMS. The major command
directed the installation to update the installation’s database with the major
command’s modified data. Another major command assumed the management
responsibilities of environmental projects from the installation because the
installation did not effectively manage the Installation Restoration Program (IRP).
Major command personnel misused their authority by circumventing established
controls to separate key preparation and review tasks between installations and
major commands. As a result, active installations and major commands did not
implement the standards set forth by OMB Circular A-123, which states that
separation of duties and responsibilities must be maintained for initiating,
authorizing, processing, recording, and reviewing transactions. Establishing
effective segregation of duties will help ensure the reliability of information
prepared and aid in the prevention of error and fraud.

Supervisory Reviews. None of the Air Force organizations reporting DERP and
non-DERP consistently document supervisory reviews conducted by management
for the cost-to-complete estimates included in Note 14 of the financial statements.

        DERP. Active Air Force installations and major commands did not
consistently document supervisory reviews performed by management for the
cost-to-complete estimates. Multiple levels of review for DERP installations exist
at active installations and major commands. Environmental cost-to-complete
documentation prepared at an installation can go through three levels of review
before submission to the major command and an additional two levels of review
at the major command before data is submitted to the Restoration Branch. At one
active installation three people were in the chain of command: the Restoration
Section Chief, the Environmental Flight Chief, and the Deputy Base Civil
Engineer, and each one was to review the cost-to-complete documentation. The
documentation obtained showed the Deputy Base Civil Engineer as the only
individual in the chain of command that reviewed the data submitted to the major
command.

Section 15.8.2 of the DERP Management Guidance requires management to
develop and implement a formal document tracking process to identify and track
all changes. It further states management must retain documentation of
management reviews. Program managers at the three major commands stated
they performed reviews of the installations program documentation; however,
they did not retain or could not readily provide documentation of the changes they
required the installations to make based on their reviews. During FY 2004, two
of the major commands reviewed and validated documentation supporting the
cost-to-complete estimates entered for the AFRIMS FY 2005 budget execution
year submission. Active installations did not prepare and major commands did
not review supporting documentation for the AFRIMS FY 2006 and out-years
submission. Fully documenting all levels of supervisory review of cost-to-
complete estimates will contribute to maintaining adequate audit trails.

        Non-DERP. Active Air Force installations and major commands did not
adequately maintain evidence of installation managers’ reviews of non-DERP
cost-to-complete estimates. Air Force personnel, the submittal of estimates by e-
mail throughout the chain of command constitutes an inherent form of
supervisory review. However, e-mail does not provide adequate information as to


                                    13
the extent of the review. The volatility of e-mail does not allow for adequate
retention in cases of personnel and position changes. In addition, some active
installation personnel responsible for preparing cost-to-complete estimates
submitted data by e-mail to the major command for review prior to installation
management’s review and approval. These active installations did not comply
with the DERP Management Guidance, which requires the retention of evidence
demonstrating management review.

Management of Human Capital. Air Force organizations reporting DERP and
non-DERP environmental data did not have adequate internal controls over
training of personnel involved in the cost-to-complete estimates for the
environmental process.

        DERP. Active Air Force installations and major commands did not
maintain adequate documentation or ensure personnel involved in the preparation
of DERP cost-to-complete estimates for environmental liabilities received regular
training. Active Air Force installations provided outdated training records and, in
some instances, could provide no training records at all for the personnel that
prepared and developed cost-to-complete estimates for environmental liabilities.
Active Air Force installations and major commands did not properly implement
and enforce section 15.8.1 of the DERP Management Guidance, which requires
that staff maintain evidence of completed training. For example, at one active
installation the training records indicated that some personnel did receive initial
RACER training a few years earlier, but did not complete refresher training.
Providing RACER “refresher” training to personnel will ensure that the personnel
can continue to use RACER software with its upgrades and changes. One major
command did provide current training records for its personnel, but those records
revealed that the majority of personnel did not fulfill the requirements for annual
training during FY 2004. Section 15.8.1 of the DERP Management Guidance
requires management to develop and implement formal training programs (such
as introductory training and recurring “refresher” training) for staff engaged in the
development of cost-to-complete estimates or preparation of environmental
restoration liability reports.

        Non-DERP. Active Air Force installations and major commands did not
retain adequate evidence of the type and frequency of training for personnel
involved in the process. Training records received from active installations and
major commands demonstrate that personnel training requirements were not being
met. Another active Air Force installation did not have any documentation
demonstrating that the personnel involved in the process of reporting the cost-to-
complete estimates completed any RACER training at all. Air Force
Instruction 65-201 requires that each primary reporting element provide managers
the appropriate training to enable the fulfillment of obligations. OMB Circular
A-123 encourages management to commit to competence by requiring personnel
to possess and maintain a level of proficiency to accomplish assigned duties.
Management’s commitment will emphasize the importance of developing and
implementing effective internal controls.
BRAC Reporting Organization. BRAC installations are responsible for
developing, reviewing, and validating the cost-to-complete environmental
liability estimates. They are also required to prepare and maintain supporting

                                     14
documentation relating to future cleanup of contamination resulting from waste
disposal methods, leaks, spills, and other past activities that have created public
health and environmental risks. AFRPA reviews and consolidates the cost
estimates from the BRAC installations and includes cost-to-complete estimates in
the reported environmental liabilities on the annual financial statements.

        Segregation of Duties. One of the four BRAC installations we visited did
not maintain proper segregation of duties when reviewing the BRAC
environmental data. OMB Circular A-123 states that the key duties and
responsibilities in authorizing, processing, recording, and reviewing official
agency transactions should be separated among individuals. Managers should
exercise appropriate oversight to ensure individuals do not exceed or abuse their
assigned authorities. AFRPA yearly instructions defined responsibilities for
BRAC installations preparing environmental cost-to-complete data for inclusion
in the FY 2004 Annual Financial Statements. The Base Environmental
Coordinator (BEC) reviews the estimator’s RACER-generated cost-to-complete
estimates and the RACER input parameters and assumptions contained in the site-
level documentation folders. The Site Manager reviews the overall cost-to-
complete worksheets approved by the BEC. The BEC and Site Manager must
sign a Quality Assurance Checklist, which attests to their review of the
environmental liability cost-to-complete estimate documentation. At this BRAC
installation, the BEC assumed responsibilities of the Site Manager, which
compromised adequate segregation of duties.

         Supervisory Reviews. BRAC installations did not perform timely
reviews of the cost-to-complete estimates used to support environmental
liabilities. According to OMB Circular A-123, management controls are the
organization’s policies and procedures used to reasonably ensure that reliable and
timely information is obtained for decision making. Cost-to-complete guidance
issued by AFRPA on July 27, 2004, did not stipulate the timeframe and deadline
when installation management should perform the reviews. Therefore, personnel
involved in the review process at the BRAC installations conducted their reviews
of the cost-to-complete estimates 2 to 4 months after the actual
September 30, 2004, submittal deadline. BRAC installations lacked resources to
properly implement the requirements of OMB Circular A-123. Defining time
requirements for supervisory review will help ensure accuracy of financial data
included in the annual financial statements.

         Management of Human Capital. BRAC installations did not retain
evidence or ensure proper training of the personnel involved in the preparation
and reporting of BRAC environmental cost-to complete estimates. The DERP
Management Guidance requires Components to develop and implement a formal
training program for staff engaged in the development of cost-to-complete
estimates or preparation of environmental restoration liability reports. In
addition, documentation that staff received the training must be maintained as
support for the audit of the annual financial statements. At all BRAC installations
we visited the supervisory staff involved in the preparation of environmental
liability reports did not have current training and, in some cases, training records
were unavailable for review. Available training records of the staff involved in
the preparation of cost-to-complete estimates revealed that personnel did not have
refresher training for RACER or any type of training during FY 2004.


                                    15
    Establishing training requirements for personnel involved in the preparation of
    environmental liability information could provide assurance that personnel are
    knowledgeable of reporting requirements and updates to system used to manage
    data.


Compliance with Environmental Liabilities Guidance and
  Regulations
    Active installations, major commands, and BRAC installations visited did not
    provide reasonable assurance that DERP Management Guidance and applicable
    Air Force guidance concerning internal controls would be followed. In addition,
    non-DERP managers lacked specific implementation guidance. As a result, the
    Air Force had a weak control environment and control activities.
    DERP Management Guidance. Active and BRAC installations did not fully or
    consistently comply with DERP Management Guidance. DUSD (I&E) developed
    the DERP Management Guidance to outline the requirements of the program for
    all DoD Components. The Air Force DERP and BRAC installations are
    responsible for implementing the DERP Management Guidance within their
    respective activities.

    Air Staff created, “Management Guidance for the United States Air Force
    Environmental Restoration Program,” for use by DERP and BRAC installations
    reporting cost-to-complete estimates for environmental liabilities. The major
    commands involved in the DERP activities developed specific handbooks and
    other guidance for use by active installations. The handbooks and additional
    guidance provided instructions on the implementation of the IRP. Air Staff and
    major commands properly incorporated the requirements of the DERP
    Management Guidance; however, the guidance does not provide detailed
    instructions on how to implement the requirements of the DERP Management
    Guidance for supervisory reviews, training, and audit trails and documentation.
    Furthermore, the guidance provided by Air Staff and major commands did not
    specify the types, extent, and level of documentation that would constitute an
    adequate audit trail for the total amount reported for environmental liabilities
    cost-to-complete estimates. The guidance also did not specify the appropriate
    types of evidence to demonstrate effective internal controls such as segregation of
    duties, supervisory review, and management of human capital. Because Air Staff
    did not provide detailed instructions, installations were unable to produce
    adequate audit trails and documentation.
    AFRPA properly ensured that BRAC installations retained adequate audit trails
    and cost-to-complete estimates. However, AFRPA did not properly implement
    DERP Management Guidance training requirements.

    Air Force Guidance. Active installations did not fully comply with applicable
    Air Force guidance. Air Force Instruction 65-201, “Management Control,”
    May 1, 1997, requires each primary reporting element to provide managers the
    appropriate training to enable the fulfillment of obligations. Active installations
    could not demonstrate through training records that personnel received
                                         16
     appropriate training and maintained the level of competence to perform tasks.
     Lack of training could lead to possible errors in cost-to-complete estimating for
     the amounts reported in support of environmental liabilities.

     Non-DERP Guidance. DUSD (I&E) did not develop guidance for the
     management and reporting of non-DERP environmental liabilities
     cost-to-complete estimates. However, Quality Branch did provide specific
     instructions to non-DERP installations for use in the preparation of cost-to-
     complete estimates for environmental liability information. Despite these specific
     instructions, non-DERP installations could not provide adequate audit trails and
     documentation, supervisory reviews, and management of human capital. As of
     June 2005, DUSD (I&E) issued draft non-DERP guidance to DoD Components
     for comment.


Reliability of Reporting Cost-to-Complete Estimates
     Air Force did not establish a restoration liability reporting process for DERP and
     may have reported erroneous cost-to-complete estimates for environmental
     liabilities in FY 2004. Active installations and major commands did not have an
     identifiable process for the preparation, review, and submittal of DERP cost-to-
     complete estimates for environmental liability data used to support the annual
     financial statements. Existing evidence for project narratives, RACER estimates,
     and other supporting documentation (prepared by the active installations and
     reviewed by the major commands) supported the FY 2005 Annual Budget
     Estimate Submission to Congress. Establishing a separate process exclusively for
     preparing and reviewing data used to report cost-to-complete estimates for
     restoration liability reporting would help ensure that financial reporting goals are
     maintained through effective internal controls. The major commands submitted
     data to the Restoration Branch for the restoration liability submission without
     adequately reviewing documentation at the installations.

     Section 15.5 of the, “DERP Management Guidance,” states that Component- and
     Departmental-level cost-to-complete estimates and the values in the financial
     statements for environmental restoration must be consistent with each other and
     able to withstand an audit. The DERP reporting installations treated the data
     submitted to Air Staff, in support of the restoration liability reporting submission
     on September 17, like a regular AFRIMS download, which is done nine times a
     year. For example, at two active installations RACER-generated cost-to-
     complete estimates and project narratives supported projects scheduled for the FY
     2005 budget execution year. Active Air Force installations entered unsupported
     cost-to-complete data in AFRIMS that reflected the entire restoration cost for an
     environmentally hazardous site. Active installation personnel claimed that the
     amounts in AFRIMS for the out years (or noncurrent portion of the environmental
     liability) are based on similar restoration activities conducted in the past or on
     undocumented professional knowledge. An identifiable restoration liability
     reporting process could help prevent the control activity weaknesses identified in
     this report, and therefore reduce potential environmental liability misstatement.




                                          17
Conclusion
    The Air Force needs to improve internal controls over reporting cost-to-complete
    estimates for environmental liabilities by strengthening its control environment
    and control activities. An ineffective control environment can negatively affect
    an entity’s integrity, operating style, structure, and its relationship with Congress
    and central oversight agencies. Deficiencies in the control activities can affect an
    entity’s planning, implementing, reviewing, and accountability for stewardship of
    Government resources and achieving effective results. To improve the extensive
    weaknesses and deficiencies we identified, Air Force Management should take
    steps to improve internal controls over reporting cost-to-complete estimates for
    environmental liabilities.


Recommendations

    A.1. We recommend that the Director, Air Force Office of the Civil Engineer,
    Environmental Division:

           a. Improve its control environment by:

                     (1) Treating all portions of the environmental liability data
    reporting process as high risk and developing standards to establish data integrity
    at all levels of reporting within the Environmental Division.

                   (2) Developing and providing training to employees responsible
    for reporting environmental liability cost-to-complete estimates for inclusion in
    the annual financial statements. The training should include the purpose of
    financial reporting and define agency requirements for producing and maintaining
    auditable documentation in accordance with applicable Federal laws and DoD
    regulations.

                   (3) Providing oversight throughout the organization to ensure that
    proper operating activities and reporting relationships exist.

            b. Direct major commands and active installations to improve control
    activities by:

                   (1) Establishing a process to evaluate and assess the uniformity
    and adequacy of audit trails and documentation, segregation of duties, and
    supervisory review at active installations and major commands. This process
    should define and enforce the requirements of Office of Management and Budget
    Circular A-123 and other applicable guidance to ensure effective internal
    controls.

                 (2) Establishing additional guidance for active installations and
    major commands that defines training requirements according to the Defense
    Environmental Restoration Program Management Guidance and other applicable
    guidance.

                                         18
                   (3) Establishing a process for active installations and major
    commands to follow during the preparation and compilation of cost-to-complete
    estimates used for restoration liability reporting submission.

    A.2. We recommend that the Director, Air Force Real Property Agency:

           a. Establish a process to ensure that no one person at Base Realignment
    And Closure installations performs more than one of the key duties and
    responsibilities in authorizing, processing, recording, and reviewing cost-to-
    complete estimates.

            b. Establish time requirements for Base Realignment and Closure
    installations to perform supervisory review of cost-to-complete estimates for
    environmental liability data reported in the fiscal year financial statements.

            c. Establish additional guidance for Base Realignment and Closure
    installations to define training requirements according to the Defense
    Environment Restoration Program Management Guidance and other applicable
    guidance.


Management Comments Required
    Comments on the draft report were received from the Assistant Secretary of the
    Air Force (Financial Management and Comptroller) too late to be incorporated
    into the final report. Therefore, if the Assistant Secretary does not submit
    additional comments, we will consider those comments as the management
    response to the final report.




                                        19
           B. Air Force Office of the Civil Engineer
              Environmental Division Management
              Control Program for Environmental
              Liabilities
           The Air Staff management control program was ineffective and did not
           identify material weaknesses related to compiling and reporting cost-to-
           complete estimates for environmental liabilities in the annual financial
           statements. This occurred because Air Staff did not perform a general
           assessment of the internal controls for the compilation of cost-to-complete
           estimates for environmental liabilities. As a result, controls were not
           adequate to ensure that cost-to-complete estimates used for environmental
           liability were accurate.



Criteria for Management Control Programs
    Government Accountability Office. GAO/AIMD-00-21.3.1, “Standards for
    Internal Control in Federal Government,” November 1999, states,
           The Federal Managers’ Financial Integrity Act of 1982 requires the
           Government Accountability Office to issue standards for internal
           control in government. The standards provide the overall framework
           for establishing and maintaining internal control and for identifying
           and addressing major performance and management challenges and
           areas at greatest risk of fraud, waste, abuse, and mismanagement.

     The five standards for internal control are: control environment, risk assessment,
    control activities, information and communications, and monitoring. These
    standards define the minimum level of quality acceptable for internal control in
    government and provide the basis against which internal control is to be
    evaluated.

    DoD Directive. DoD Directive 5010.38, “Management Control Program,”
    August 26, 1996, implements the GAO and OMB guidance that is required by the
    Federal Managers’ Financial Integrity Act of 1982. The DoD Directive requires
    DoD Components to implement a comprehensive strategy for management
    controls that provides reasonable assurance that “... programs and administrative
    and operating functions are efficiently and effectively carried out in accordance
    with applicable law and management policy.” The management control process
    should be integrated into the daily management practices of all DoD managers.
    When developing the Management Control Program, DoD managers should rely
    on all contributing information sources, including external audits.

    DoD Instruction. DoD Instruction 5010.40, “Management Control Program
    Procedures,” August 28, 1996, requires DoD Components to develop a
    Management Control Program. The Management Control Program, through its

                                            20
     self assessment process, assists managers in identifying material management
     control weaknesses. The DoD Instruction states that in order for a weakness to be
     material, two conditions must be satisfied:

        •   management controls are not in place, not used, or not adequate, and

        •   the weakness is material enough to require the attention of the next level
            of management.

     Each DoD Component should submit an annual statement of assurance based on a
     general assessment of the effectiveness of the management controls.



Assessment of Internal Controls
     The Air Staff management control program was ineffective and did not identify
     material weaknesses related to the compiling and reporting of cost-to-complete
     estimates for environmental liability data in the annual financial statements.
     Air Staff did not perform a general assessment of the internal controls over the
     compiling and reporting cost-to-complete estimates for environmental liabilities.

     These deficiencies occurred because Air Staff did not collect, review, or
     consolidate documentation of management control programs from major
     commands. Periodic assessments of internal controls would reveal inadequate
     and ineffective control practices and identify opportunities for improvement.
     Air Staff did not provide input for the overall FY 2004 Annual Statement of
     Assurance. As a result, the adequacy of management controls over cost-to-
     complete estimates for environmental liabilities was not properly represented in
     the FY 2004 Annual Statement of Assurance.


Recommendation
     B. We recommend that the Chief, Air Force Office of the Civil Engineer,
     Environmental Division:

              a. Perform periodic assessments of the internal controls identified by the
     major commands’ management control programs to determine effectiveness and
     reliability of internal controls.

            b. Report the material weaknesses identified in finding A of this report
     and other material weaknesses identified through assessments in its annual
     statement of assurance until corrected.




                                          21
Management Comments Required
    Comments on the draft report were received from the Assistant Secretary of the
    Air Force (Financial Management and Comptroller) too late to be incorporated
    into the final report. Therefore, if the Assistant Secretary does not submit
    additional comments, we will consider those comments as the management
    response to the final report.




                                       22
Appendix A. Scope and Methodology
   We reviewed the Air Force processes and data used for compiling and reporting
   cost-to-complete estimates for environmental liabilities used in Note 14 of the
   Air Force FY 2004 Annual Financial Statements. We reviewed the control
   environment and control activities over $7.4 billion of Air Force cost-to-complete
   estimates for environmental liabilities reported on Note 14. The Air Force reports
   DERP, non-DERP, and BRAC cost-to-complete estimates for environmental
   liabilities from 227 active and 28 BRAC installations in the United States.

   Active Installations. We visited the following Commands: Air Force Materiel
   Command, Air Mobility Command, and Air Education and Training Command.
   We visited Edwards Air Force Base, which reports to the Air Force Materiel
   Command; Scott and McChord Air Force Bases, which report to the Air Mobility
   Command; and Lackland Air Force Base, which reports to the Air Education and
   Training Command. We reviewed DERP and non-DERP transactions to gain an
   understanding of the internal controls used at these installations.

   Active Air Force installations reporting DERP environmental liability activities
   showed a total of 4,392 cost-to-complete estimates as of September 30, 2004. We
   selected a judgmental sample and reviewed 65 transactions for the four
   installations visited. This represented different phases of the Environmental
   Restoration Process and highest and lowest dollar amounts.

   Active Air Force installations reporting non-DERP environmental liability
   activities showed 2,394 transactions as of September 30, 2004. We selected a
   judgmental sample and reviewed 15 transactions that represented different phases
   of the Environmental Restoration Process and highest and lowest dollar amounts.

   BRAC Installations. We visited McClellan Air Force Base, which is the
   regional operating location for McClellan, March, and Norton Air Force Bases,
   and Loring Air Force Base, which also manages Pease Air Force Base. At all
   locations we reviewed cost-to-complete estimates for the installations to gain an
   understanding of the internal controls.
   BRAC Air Force installations reporting BRAC environmental liability activities
   showed 1,554 transactions as of September 30, 2004. We selected a judgmental
   sample of 28 transactions that represented different phases of the Environmental
   Restoration Process and highest and lowest dollar amounts.

   We performed this audit from November 2004 through August 2005 in
   accordance with generally accepted government auditing standards. Controls
   reviewed included development of estimates, personnel qualifications and
   training of estimators, supervisory reviews of estimates, and audit trails and
   documentation supporting estimates.

   We did not review Department of the Army or Department of the Navy internal
   controls for reporting environmental liabilities. The Army is implementing
   corrective actions from DoD OIG Report Number D-2004-080, and the Naval



                                       23
Audit Service is currently conducting agreed-upon procedures for the Department
of the Navy.

To accomplish this audit, we requested Air Staff and AFRPA to provide the audit
team with the appropriate environmental liability databases for active and BRAC
installations. We identified, analyzed, and evaluated the cost-to-complete
estimates from the databases using applicable requirements contained in OMB
Circular A-123, DoD FMR, DoD and Air Force DERP guidance, and Air Force
instructions.

Use of Computer-Processed Data. To achieve the audit objectives, we relied on
computer-processed data retrieved from the Air Staff AFRIMS database, non-
DERP Microsoft Excel Spreadsheets, the AFRPA MIS, and RACER in support of
the estimated environmental liability reported in the Annual Financial Statement.
Although we did not perform a formal reliability assessment of the computer-
processed data, the reliability of the computer-processed data had no effect on the
audit because we focused on the process associated with compiling the data. We
used the data to validate whether the costs are reasonably determined, approved,
and documented.

Government Accountability Office High-Risk Area. The Government
Accountability Office has identified several high-risk areas in DoD. This report
provides coverage of the DoD Financial Management high-risk area.




                                    24
Appendix B. Prior Coverage
The Government Accountability Office (GAO), the Department of Defense Inspector
General (DoD IG), and the Air Force Audit Agency (AFAA) have issued 20 reports
during the last 5 years that discuss environmental liabilities. Unrestricted GAO and DoD
IG reports can be accessed over the Internet at http://www.gao.gov and
http://www/dodig.mil/audit/reports, respectively.

GAO
       GAO Report No. GAO-03-98, “Major Management Challenges and Program
       Risks,” January 2003

       GAO Report No. GAO-02-117, “Environmental Liabilities – Cleanup Costs from
       Certain DoD Operations Are Not Being Reported,” December 2001

       GAO Report No. GAO-01-479, “Environmental Liabilities: DoD Training Range
       Cleanup Costs Estimates Are Likely Understated,” April 2001


DoD IG
       DoD IG Report No. D-2005-017, “Independent Auditor’s Report on the FY 2004
       DoD Agency-Wide Financial Statement,” November 12, 2004

       DoD IG Report No. D-2004-080, “Environmental Liabilities Required To Be
       Reported On Annual Financial Statements,” May 5, 2004

       DoD IG Report No. D-2004-036, “Independent Auditor’s Report on the FY 2003
       DoD Agency-Wide Financial Statements,” December 10, 2003

       DoD IG Report No. D-2003-0050, “Independent Auditor’s Report on the
       Department of Defense Fiscal Year 2002 Agency-Wide Principal Financial
       Statements,” January 15, 2003

       DoD IG Report No. D-2001-172, “Data Supporting the Environment Liability
       Reported on the FY 2000 Financial Statements,” August 10, 2001

       DoD IG Report No. D-2000-168, “Data Supporting the Environmental Liability
       Line Item on the FY 1999 DoD Financial Statement,” July 27, 2000




                                           25
Air Force

    AFAA Report No. F2003-0006-FB4000, “Follow-up Audit – Restoration
    Contingent Liabilities at Closed Installations,” February 28, 2003

    AFAA Report No. F2002-0005-B05300, “Accounting for Air Force Liabilities,
    Fiscal Year 2001,” July 29, 2002

    AFAA Report No. F2002-0005-B05200, “Follow-up Audit-Installation Support
    of the Environmental Restoration Program,” April 23, 2002

    AFAA Report No. F2002-0002-B05200, “Environmental Compliance Cleanup
    Liabilities,” March 8, 2002

    AFAA Report No. 0005406, “Air Force Information Management System
    Controls,” May 18, 2001

    AFAA Report No. 00052012, “Environmental Restoration Contingent Liabilities
    at Closed Installations,” February 27, 2001




                                     26
Appendix C. Effective Internal Control Practices
       Examples of an Effective Control Environment and Control Activities

                              CONTROL ENVIRONMENT

    Philosophy and        Management establishes a positive attitude towards
    Operating Style       information systems, accounting, personnel functions,
                          monitoring, and audits and evaluations.

    Commitment to         Management identifies appropriate knowledge and skills
    Competence            needed for various jobs and provides needed training, ensuring
                          that personnel possess and maintain a level of competence to
                          accomplish assigned duties.

    Organizational        Agency’s structure clearly defines areas of responsibility and
    Structure             lines of reporting.

    Delegation of         Management appropriately delegates authority for operating
    Authority and         activities, reporting relationships, and authorization protocols.
    Responsibility

                                 CONTROL ACTIVITIES

    Appropriate           Personnel clearly document internal controls, transactions, and
    Documentation of      other significant events and ensure documentation is readily
    Transactions and      available for examination.
    Internal Control

    Segregation of        Agency divides or segregates key duties and responsibilities
    Duties                among several individuals to reduce the risk of error or fraud.

    Reviews by            Managers compare actual performance to planned or expected
    Management at         results throughout the organization and analyze significant
    the Functional or     differences.
    Activity Level

    Management of         Entities effectively manage human capital by ensuring that
    Human Capital         qualified personnel performing tasks receive adequate
                          training, tools, structure, incentives, and responsibilities.

                                FINANCIAL REPORTING

    An effective internal control process includes steps to mitigate external factors such
    as human mistakes, judgment errors, and acts of collusion to circumvent controls.
    Once in place, internal controls provide reasonable assurance of meeting agency
    objectives, which includes the reliability of financial reporting.




                                         27
Appendix D. Other Matters of Interest

Military Munitions Response Program
    MMRP includes response actions to address military munitions or the chemical
    residues of munitions. MMRP projects will receive initial funding during
    FY 2005. MMRP is in its infancy, and there is not a concrete basis for the
    environmental estimates planned for future projects. Therefore, the total reported
    liability will likely increase significantly after completing investigations of
    potential sites near the end of FY 2007. The reported environmental liability for
    DERP installations in the FY 2004 Annual Financial Statements properly
    included the estimated costs for MMRP activities scheduled for FY 2005 and
    beyond.

Information Management System
    The data and processes used to report non-DERP environmental liabilities in the
    Air Force financial statements lacked effective access controls and adequate edit
    checks. Air Force active installations generated RACER estimates or used
    historical documents to produce cost-to-complete estimates. However, the
    Air Force active installations and major commands could not ensure the proper
    execution of transactions and events, or the existence of system audit trails to
    ensure the reliability of data. This occurred because the non-DERP program did
    not have an information management or financial management system in place to
    process and maintain cost-to-complete information for non-DERP environmental
    liabilities. Instead, non-DERP reporting installations use Microsoft Excel
    spreadsheets to compile and track environmental liability data. As a result, the
    non-DERP cost-to-complete information was potentially at risk for manipulation,
    thus affecting the validity and reliability of the cost-to-complete estimates used in
    support of environmental liabilities by the Air Force active installations.

    The Air Force is currently developing a management information system that will
    have the capability to manage both DERP and non-DERP environmental
    liabilities. Until the system is in place, non-DERP installations should develop
    mitigating controls to ensure the integrity of data compilation and submittals to
    major commands and Air Staff for inclusion in the Air Force annual financial
    statements.

Quarterly Reporting
    Active and BRAC Air Force installations do not report new cost-to-complete
    estimates on a quarterly basis. Installations report cost-to-complete estimates for
    sites identified as environmental hazards at the end of each fiscal year. Monthly
    submittals to the Defense Financial Accounting Service include Air Force liability
    expenditures against previously reported obligations. In the event of new site
    identifications for cleanup during the fiscal year, installation personnel should
    prepare cost-to-complete estimates for the new site and report to Defense
    Financial Accounting Service in the quarter that a reasonable estimate can be
    developed.
                                         28
     Air Force management believes that because of the constant changing of cost-to-
     complete estimates throughout the year, reporting their value in the financial
     statements quarterly would not accurately represent the true environmental
     liability. Until there is further guidance from the DoD financial and policy
     communities, the Air Force should disclose in Note 14 of the Air Force financial
     statements that the reporting period for cost estimates is once every fiscal year
     and that only expenditures are reported quarterly to Defense Financial Accounting
     Service.

Corrective Actions taken by the Air Force Real Property
Agency
     The AFRPA provided DoD OIG a copy of the proposed FY 2005
     cost-to-complete data submission guidance. The guidance clarifies review and
     signature requirements for the Supervisory Review and Quality Assurance
     checklists. The FY 2004 cost-to-complete data submission guidance required the
     signatures of the BEC and the Site Manager on both checklists. The proposed
     FY 2005 guidance requires the estimator or engineer to sign the Supervisory
     Review checklist as the preparer and the BEC as the reviewer of the estimate.
     The Quality Assurance checklist requires the BEC to sign as reviewer and the Site
     Manager as approver of the estimate. This new guidance will further define
     segregation of duties for preparing and submitting cost-to-complete data.




                                        29
    Appendix E. Environmental Information Flow
                 Process as Designed


                                                              Chief of Air Staff/
                                                            Air Force Office Civil
                                                           Engineer, Environmental
                                                                  Division
                                                                   (ILEV)




      Quality Branch (ILEVQ)                                 Integration Branch                         Restoration Branch
            Reports non-DERP CTC                                  (ILEVA)                                    (ILEVR)
          environmental liabilities data.                  Approves the DERP and non-              Reports DERP CTC environmental
            Develops and implements                          DERP financial data and                        liabilities data.
             policy, procedures, and                             narrative text.                     Develops and implements policy,
                     guidance.                                                                          procedures, and guidance.




               Major Command                                                            Major Command
                     Non-DERP                                                                   DERP
           Reviews and approves the CTC                                            Reviews and approves the CTC
          for environmental liabilities data                                      for environmental liabilities data
           used in the fiscal year financial                                       used in the fiscal year financial
                     statements.                                                             statements.




                                            Installation                                                          Installation
                                     Prepares and maintains                                                  Prepares and maintains
                                  supporting documentation for                                           supporting documentation for
                                 the non-DERP CTC estimates.                                               the DERP CTC estimates.




Legend:
          Flow of Information
                                                                    30
Appendix F. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Director, Acquisition Resources and Analysis
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Under Secretary of Defense (Installations and Environment)

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force
Deputy, Air Force Civil Engineer for Installation, Logistics, and Engineering

Other Defense Organizations
Director, Defense Finance and Accounting Service
Director, Air Force Civil Engineer
Director, Air Force Real Property Agency

Non-Defense Federal Organization
Office of Management and Budget
Government Accountability Office




                                          31
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Management, Finance, and Accountability,
  Committee on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform




                                        32
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Defense Financial Auditing Service prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Paul J. Granetto
Barbara A. Sauls
Monica M. Harrigan
Corrisse L.Carlton
Robert France
Woodrow Mack
Chuck Chin
Shanika Knight
Carmen Ellis
Faith Crawford
Giormary Peluyera
George West
Brantley Thomas
Erin S. Hart
Catherine Bird
Ann Thompson
